App. 1 (Appendix 0)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA
JUDGMENT

DANIEL G SZMANIA,,

CASE NUMBER:
C16-5644-RBL

Plaintiff,
v.

(Filed Nov. 21, 2016)

E-LOAN, INC., et al.,
Defendant(s).

XX Decision by Court. This action came to consid­
eration before the Court. The issues have been
considered and a decision has been rendered.

THE COURT HAS ORDERED THAT
Plaintiff’s request for certification is DENIED.
Defendants’ Motion to Dismiss is GRANTED.
Plaintiff’s claims are DISMISSED with prejudice
and without leave to amend.
DATED this 21st day of November, 2016
s/William M. McCool
William M. McCool, Clerk
s/Jean Boring
Jean Boring, Deputy Clerk

App. 2 (Appendix 1)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DANIEL G. SZMANIA,

No. 16-36055

Plaintiff - Appellant,

D.C. No.
3:16-cv-05644-RBL
v.
U.S. District Court for
E-LOAN, INC.; et al.,
Western Washington,
Defendants - Appellees. Tacoma
MANDATE
(Filed Jul. 11,2018)
The judgment of this Court, entered February 23,
2018, takes effect this date.
This constitutes the formal mandate of this Court
issued pursuant to Rule 41(a) of the Federal Rules of
Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Jessica F. Flores
Poblano Deputy Clerk
Ninth Circuit Rule 27-7

App. 3 (Appendix 2)
Supreme Court of the United States
Office of the Clerk
Washington, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
February 19, 2019
Clerk
United States Court of Appeals
for the Ninth Circuit
95 Seventh Street
San Francisco, CA 94103-1526
Re: Daniel G. Szmania
v. E-Loan, Inc., et al.
No. 18-734
(Your No. 16-36055)
Dear Clerk:
The Court today entered the following order in the
above-entitled case:
The petition for a writ of certiorari is denied.
Sincerely,
/s/ Scott S. Harris
Scott S. Harris, Clerk

App. 4 (Appendix 3)
HONORABLE JUDGE VELJACIC
DEPARTMENT #5
IN THE SUPERIOR COURT
OF THE STATE OF WASHINGTON
FOR CLARK COUNTY

WELLS FARGO BANK,
NA, AS TRUSTEE FOR
BEAR STEARNS ARM
TRUST 2007-3,
Plaintiff,
Vs.
DANIEL G. SZMANIA,
Defendant.

)
)

Case No.
16-2-02606-4

)
)
)
)

NOTICE TO CLERK
OF REMOVAL TO
FEDERAL COURT

)

(Filed May 18, 2017)

)
)
)

)
TO:

Noted for consideration:
N/A

Clark County Superior Court Clerk;

AND TO: Wells Fargo Bank, N.A., as Trustee for Bear
Stearns Arm Trust 2007-3, (Wells Fargo) Plaintiff,
NOTICE IS HERBEY GIVEN, pursuant to 28 U.S.C.
§§ 1291, 1332(a), 1367(a) 1441(a)(b)(c) and 1446, that
this instant case is a descendant of Case No. 16-201214-4 IN THE SUPERIOR COURT OF THE STATE
OF WASHINGTON FOR CLARK COUNTY that was
properly removed on July 20, 2016 by the Plaintiff in
this case, Wells Fargo, (Defendant in Case No. 16-201214-4 {Original Case}) to UNITED STATES DISTRICT
COURT WESTERN DISTRICT OF WASHINGTON

App. 5 (Appendix 3)
AT TACOMA, Case No. 3:16-CV-05644-RBL, (Federal
Case). See Ex H Szmania’s Motion to Dismiss.
Under 28 U.S.C. § 1291, the UNITED STATES
COURT OF APPEALS FOR THE NINTH CIR­
CUIT Case No. 16-36055, (Appeal Case) accepted
Jurisdiction over all matters regarding the prop­
erty located at: 17005 NE 164th Ave, Brush Prai­
rie, WA 98606 as the Notice of Appeal was filed on
12/19/16 Dkt 67 in Federal Case. (*I ask the Court
to Judicially Notice the above four (4) noted cases.)
28 U.S.C. § 1446(d) reads: “(d) Notice
Adverse Parties and State Court.—
Promptly after the filing of such notice of re­
moval ofa civil action the defendant or defend­
ants shall give written notice thereof to all
adverse parties and shall file a copy of the no­
tice with the clerk of such State court, which
shall effect the removal and the State
court shall proceed no further unless and
until the case is remanded(Emphases
added!)
to

The Original Case No. 16-2-01214-4 IN THE
SUPERIOR COURT OF THE STATE OF WASH­
INGTON FOR CLARK COUNTY has NEVER
BEEN REMANDED!
Furthermore, "28 US. Code § 1367 - Supplemental
Jurisdiction (a) Except as provided in subsections (b)
and (c) or as expressly provided otherwise by Federal
statute. in any civil action of which the district
courts have original jurisdiction. the district
courts shall have supplemental jurisdiction over

App. 6 (Appendix 3)
all other claims that are so related to claims in
the action within such original jurisdiction that
they form part of the same case or controversy un­
der Article III of the United States Constitution.
Such supplemental jurisdiction shall include claims
that involve the joinder or intervention of additional
parties ” (Emphases added!)
As Declared in DktEntry 17-2, Declaration of Dan­
iel Szmania in the Appeal Case outlines the timeline
of the four (4) cases and the clearly shows of the denial
of the Motion to Remand to State Court in the Federal
Case and is the original record per FRAP 30(f) show
as material evidence:
(Appellant is Szmania, Appellee is Wells Fargo) and
(Dkt Citings are Federal Case)
1.

On June 27, 2016, Appellant files Case No.
16-2-01214-4 IN THE SUPERIOR COURT
OF THE STATE OF WASHINGTON FOR
CLARK COUNTY See Dkt 2-2 Ex 4 pages 1-65.

2.

On July 20, 2016 Appellees give up Jurisdic­
tion in the IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON FOR CLARK
COUNTY by moving Case No. 16-2-01214-4 to
the UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA, Case No. 3:16-CV-05644-RBL.
See Dkt 1 pages 1-5, Dkt 2 pages 1-4 and Dkt
3 pages 1-3.

3.

On July 22, 2016, Presiding Judge Stahnke
cites 28 U.S.C. § 1446(d) and notes on the mo­
tion docket regarding Case No. 16-2-01214-4:

App. 7 (Appendix 3)
“Motion for removal to Federal Court has been
filed by the defendant. (Wells Fargo). There­
fore, pursuant to federal status no action will
be taken by the State Court until; when or if
the case is remanded”. See Dkt 20-3 Ex C.
4.

On 8/8/16 Dkt 23 pages 1-5, Appellant Mo­
tioned the Federal District Court to Remand
back to the State Court.

5.

On 8/29/16 Dkt 39 pages 1-5 Appellees filed
their Opposition to Remand.

6.

On 9/8/16 Dkt 49 at page 6 at 23. The U.S. Dis­
trict Court Denied the Motion to Remand Back
to State Court saying: “The Motion to Remand
[Dkt. #23] is DENIED” Thus denying the State
Court Jurisdiction once again and maintain­
ing original Jurisdiction in the U.S. District
Court.

7.

On 11/18/16 Dkt 64, in the US. Federal District
Court Case No. 3:16-CV-05644-RBL, the Court
Rules on Appellees Motion to Dismiss, Dkt 56.

8.

On 11/21/16, Dkt 65 Is the Entry ofjudgment
of originating court.

9.

On 12/01/16, Dkt 66 is the Date of service of
any motion made after judgment.

10. 0,112/19/16, Dkt 68 is the Date of entry of or­
der deciding motion.
11. On 12/19/16 Dkt 67, Appellant files in the
U.S. Federal District Court Case No. 3.16-CV05644-RBL, Notice ofAppeal to the U.S. Court
ofAppeals for the Ninth Circuit. On 12/20/16
U.S. Court of Appeals for the Ninth Circuit

App. 8 (Appendix 3)
accepts the Appeal, Case No. 16-36055. (See
DktEntry 1-3 Appeal Case).
12. On 12122116 Appellees, Wells Fargo Bank N.A.
and Benjamin D. Petiprin files a frivolous case
in the Superior Court of the State of Washing­
ton for Clark County, Case No. 16-2-02606-4.
The 12 items noted above clearly show that the
Federal Court actions were initiated first with proceed­
ings of substance on the merits and have occurred be­
fore the Plaintiff/Appellees filed their frivolous instant
case, state action listed as number 12 on 12/22/16
three (3) davs. after the Notice of Appeal was filed on
12/19/16, Dkt 67 in Federal Case.
Defendant in the instant case; Daniel G. Szmania
enforces the prior removal and has removed this in­
stant matter which is under the Appellate Jurisdiction
of 28 U.S.C. § 1291, the Diversity Jurisdiction of 28
U.S.C. § 1332, the Supplemental Jurisdiction of 28
U.S.C. § 1367 and the Original Jurisdiction of 28 U.S.C.
§ 1441 and 28 U.S.C. § 1446. This case also is from the
nucleus of the previous removed State Case No. 16-201214-4 that was removed on 20 July 2016, to the
United States District Court for the Western District
at Tacoma, Case No. 3:16-CV-05644-RBL, which has
submitted Jurisdiction under 28 U.S.C. § 1291, to the
U.S. Court of Appeals for the Ninth Circuit and it ac­
ceptance of the Appeal, Case No. 16-36055.
Defendant in this instant case, Daniel G. Szmania
has removed this matter on May 18,2017 to the United
States District Court for the Western District at

App. 9 (Appendix 3)
Tacoma, Case No. 3:16-CV05644-RBL, which has sub­
mitted it’s Jurisdiction under 28 U.S.C. § 1291, to the
U.S. Court of Appeals for the Ninth Circuit and it ac­
ceptance of the Appeal, Case No. 16-36055. A true and
correct copy of the Notice of Removal to Federal Court,
without attachments is attached.
This removal terminates this Courts juris­
diction and all proceedings in this forum pursu­
ant to 28 U.S.C. § 1291. 28 U.S.C. § 1332. 28 U.S.C.
§ 1367(a). 28 U.S.C. § 1441 and 28 U.S.C. § 1446(d)!
“There is no discretion to ignore lack of jurisdiction*
Joyce v. U.S. 474 2D 215.
Submitted by:
/s/ Daniel Szmania
Defendant. Daniel G. Szmania,
Pro Se’ May 18, 2017
Presented: Daniel G. Szmania, Defendant, Pro Se’.
HM1USNR Retired, U.S. Supreme Court No. 11-6137.
17005 NE 164th Ave., Brush Prairie, WA 98606
360-260-2280, Email: dszmania@quixnet.net

CERTIFICATE OF SERVICE
Case No. 16-2-02606-4.
Pursuant to RCW 9.A.72.085, the undersigned cer­
tifies under penalty of peijury under the laws of the
State of Washington, that on the 18th day of May, 2017,
I served via:

App. 10 (Appendix 3)
X First Class Mail, to the following persons, a true
and correct copy of the Foregoing:
1) NOTICE TO CLERK OF REMOVAL TO FED­
ERAL COURT, NOTICE OF REMOVAL TO FED­
ERAL COURT, TO PLAINTIFF:
1) Wells Fargo Bank, N.A., AS TRUSTEE FOR BEAR
STEARNS ARM TRUST 2007-3.
C/o Zieve, Brodnax & Steele, LLP, Benjamin D. Petiprin,
Esq.
6100 219th St. SW #480, Mountlake Terrace, WA 98043
206-866-5345 bpetiprin@zievelaw.com
2) Wells Fargo Bank, N.A., AS TRUSTEE FOR
BEAR STEARNS ARM TRUST 2007-3. C/o Dale W. Read
211 East McLoughlin Blvd, Vancouver, WA 98663
360-696-5976
I certify under penalty of peijury under the laws of
the United States of America and the laws of the State
of Washington that the foregoing is true and correct.
Dated this 18th day of May, 2017, at Brush Prairie,
Washington.
/s/ Daniel G. Szmania
Daniel G. Szmania
Presented: Daniel G. Szmania, Defendant, Pro Se’.
HM1 USNR Retired, U.S. Supreme Court No. 11-6137.
17005 NE 164th Ave., Brush Prairie, WA 98606
360-260-2280, Email: dszmania@quixnet.net
CERTIFICATE OF SERVICE

App. 11 (Appendix 3)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DANIEL G. SZMANIA,

)No. 16-36055

Plaintiff - Appellant, ))D.C. No.
Vs.
) 3:16-cv-05644-RBL U.S.
) District Court for Western
E-LOAN, INC.,
) Washington, Tacoma
AND
)
) NOTICE OF REMOVAL
BEAR STEARNS ARM
) TO FEDERAL COURT
TRUST, MORTGAGE
)
PASS-THROUGH
)
CERTIFICATES,
)
SERIES 2007-3,
)
)

AND

BENJAMIN D. PETIPRIN, )
)
)

AND

WELLS FARGO BANK, N.A. )
AND
JOHN G. STUMPF,

)
NOTE
)

ON MOTION
CALENDAR:

_____ Defendants - Appellees.) N/A
INTRODUCTION.
Pursuant to 28 U.S.C. §§ 1291, 1332(a), 1367(a),
1441(a) and 1446 Defendant/Appellant Daniel G. Szmania,
(Szmania) respectfully gives notice of the removal of
this action from Clark County Superior Court to this
Court. Basis for removal is federal Jurisdiction on

App. 12 (Appendix 3)
Appeals, Diversity Jurisdiction, Supplemental Jurisdic­
tion, Original Jurisdiction and Subject Matter Juris­
diction.

BACKGROUND
On or about December 22, 2016, Plaintiff in State
Action, WELLS FARGO BANK, N.A., AS TRUSTEE
FOR BEAR STEARNS ARM TRUST 2007-3, (Wells
Fargo) filed this matter in state court under Clark
County Superior Court Case No. 16-2-02606-4 (State
Court). Pursuant to Local Rule 101(b), a true and cor­
rect copy of the operative Complaint is attached hereto
with the accompanying Declaration of Daniel G.
Szmania (Szmania Decl), Ex 1-Ex 4.
BACKGROUND OF APPELLATE
JURISDICTION 28 U.S.C. 1291
As Declared in DktEntry 17-2, Declaration of Dan­
iel Szmania in the Appeal Case, outlines the timeline
of the four (4) cases and the clearly shows of the denial
of the Motion to Remand to State Court in the Federal
Case and is the original record per FRAP 30(f) show
as material evidence: (Appellant is Szmania, Appellee
is Wells Fargo) and (Dkt Citings are Federal Case)
1.

On June 27, 2016, Appellant files Case No. 162-01214-4 IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON FOR CLARK
COUNTY. See Dkt 2-2 Ex 4 pages 1-65.

App. 13 (Appendix 3)
2.

On July 20, 2016 Appellees give up Jurisdic­
tion in the IN THE SUPERIOR COURT OF
THE STATE OF WASHINGTON FOR CLARK
COUNTY, by moving Case No. 16-201214-4 to
the UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF WASHINGTON
AT TACOMA, Case No. 3.16-CV-05644-RBL.
See Dkt 1 pages 1-5, Dkt 2 pages 1-4 and Dkt
3 pages 1-3.

3.

On July 22, 2016, Presiding Judge Stahnke
cites 28 U.S.C. § 1446(d) and notes on the mo­
tion docket regarding Case No. 16-2-01214-4:
“Motion for removal to Federal Court has been
filed by the defendant. (Wells Fargo). There­
fore, pursuant to federal status no action will
be taken by the State Court until; when or if
the case is remanded”. See Dkt 20-3 Ex C.

4.

On 818116 Dkt 23 pages 1-5, Appellant Mo­
tioned the Federal District Court to Remand
back to the State Court.

5.

On 8/29/16 Dkt 39 pages 1-5 Appellees filed
their Opposition to Remand.

6.

On 9/8/16 Dkt 49 at page 6 at 23. The U.S. Dis­
trict Court Denied the Motion to Remand Back
to State Court saying: “The Motion to Remand
[Dkt. #231 is DENIED” Thus denying the State
Court Jurisdiction once again and maintain­
ing original Jurisdiction in the U.S. District
Court.

7.

On 11/18/16 Dkt 64, in the U.S. Federal Dis­
trict Court Case No. 3.16-CV-0564-RBL, the

App. 14 (Appendix 3)
Court Rules on Appellees Motion to Dismiss,
Dkt 56.
8.

On 11/21/16, Dkt 65 Is the Entry ofjudgment
of originating court.

9.

On 12/01/16, Dkt 66 is the Date of service of
any motion made after judgment.

10. On 12/19/16, Dkt 68 is'the Date of entry of or­
der deciding motion.
11. On 12/19/16 Dkt 67, Appellant files in the U.S.
Federal District Court Case No. 3:16-CV05644
-RBL, Notice ofAppeal to the U.S. Court ofAp­
peals for the Ninth Circuit. On 12/20/16 U.S.
Court ofAppeals for the Ninth Circuit accepts
the Appeal, Case No. 16-36055. (See DktEntry
1-3 Appeal Case).
12. On 12/22(16 Appellees, Wells Fargo Bank N.A.
and Benjamin D. Petiprin files a frivolous case
in the Superior Court of the State of Washing­
ton for Clark County, Case No. 16-2-02606-4.
Seeking relief of an Unlawful Detainer. This
claim was never raised in the Federal Case,
thus it can not be addressed on appeal per the
doctrine of resjudicata and claim preclusion.
However, the subject matter of the property
known as: 17005 NE 164th Ave, Brush Prai­
rie, WA 98606, is under Subject Matter Ju­
risdiction, Appellate Jurisdiction, Diversity
Jurisdiction, Supplemental Jurisdiction and
Original Jurisdiction of the Ninth Circuit
Court ofAppeals in Case No. 16-36055.

App. 15 (Appendix 3)
The 12 items noted above clearly show that the
Federal Court actions were initiated first with proceed­
ings of substance on the merits and have occurred
before the Plaintiff/Appellees Wells Fargo filed their
frivolous instant state case, in number 12 above and on
12/22/16 three (3) days after the Notice of Appeal
was filed on 12/19/16, Dkt 67 in Federal Case.
DIVERSITY JURISDICTION
28 U.S.C. § 1332(a) provides in relevant part: “(a)
The district courts shall have original jurisdiction of all
civil actions where the matter in controversy exceeds
the sum or value of $75,000, exclusive of interest and
costs, and is between—(1) citizens of different States.”
Szmania - Defendant Szmania is a resident of
Clark County, Washington and is therefore a citizen of
Washington for diversity purposes. See Dkt 2-2 Ex 4,
page 11 #7.
Wells Fargo Bank, N.A. - Plaintiff Wells Fargo
Bank, N.A. (“Wells Fargo”) is a national bank head­
quartered in South Dakota and is therefore a citizen of
South Dakota for diversity purposes. See Dkt 1, page 2
at 18-19.
Amount in Controversy - Plaintiff, Wells Fargo
seeks possession of a home they say is valued at
$680,800.00, meeting the amount in controversy thresh­
old and stated in good faith per LCR 101(a). See En­
closed Complaint of Plaintiff, Ex 3 of Wells Fargo, for
Unlawful Detainer “Ex A, Trustee Deed page 2, #10”.

App. 16 (Appendix 3)
Plaintiff, Wells Fargo is a citizen of the State of
South Dakota. Defendant Szmania is a citizen of the
State of Washington. The amount in controversy ex­
ceeds $75,000.00. This Court thererfore has original
jurisdiction of this lawsuit pursuant to 28 U.S.C.
§ 1332(a), Diversity Jurisdiction. Which submitted
itself to jurisdiction of the Ninth Circuit Court of Ap­
peals, per 28 U.S.C. § 1291, which also has Supple­
mental Jurisdiction under 28 U.S.C. § 1367(a).
PROCEDURAL REQUIREMENTS
Removal Is Ascertained. This removal pursu­
ant to “28 U.S.C. § 1446(a) A defendant or defendants
desiring to remove any civil action from a State court
shall file in the district court of the United States for
the district and division within which such action is
■pending a notice of removal signed pursuant to Rule 11
of the Federal Rules of Civil Procedure and containing
a short and plain statement of the grounds for removal,
(b)(3), from which it may first be ascertained that the
case is one which is or has become removable (c)(1) pro­
vided that in the absence of bad faith, the removal is
made within one year of commencement of the action ”
Here, Defendant Szmania was never properly served
with a Summons or a Compliant, making this removal
timely due to the unaccompanied formal service and
Defendant had to ascertain on his own out side of the
Plaintiff’s State Court Summons & Complaint that the
case is removable.

App. 17 (Appendix 3)
Intradistrict Assignment. Pursuant to 28 U.S.C.
§§ 1441 and 1446, Defendant Szmania files this Notice
of Removal in the United States District Court for the
Western District of Washington at Tacoma, which is
the federal district court embracing the state court
where Plaintiff Wells Fargo has brought the State
Court Lawsuit - Clark County, Washington. Venue is
proper in this district pursuant to 28 U.S.C. § 1391(a)
and 28 U.S.C. §128(b). Filing of the Removal is proper
in the UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT Case No. 16-36055 per 28
U.S.C. § 1291 which accepted Jurisdiction on 12/20/17.
See DktEntry 1-3. And it’s Supplemental Jurisdiction
under 28 U.S.C. § 1367(a).
State Court Pleadings. As required by 28 U.S.C.
§ 1446, a true and correct copy of all state court pro­
cess, pleadings, or orders served on the removing
party to date. Defendant Szmania was never
properly served with a Summons and Complaint.
However, Defendant Szmania does enclose a true and
correct of the Summons and Complaint in compliance
with Local Rule 101(6). See Szmania Decl. Ex 1, Ex 2,
Ex 3 and Ex 4.
Consent. This matter is being removed by De­
fendant Szmania, who consents to the removal, even
though he was not properly served with the Sum­
mons and Complaint, removes case under 28 U.S.C.
§§ 1291,1332(a) and (1), 1367(a), 1441(a) and 28 U.S.C.
§ 1446(a).

App. 18 (Appendix 3)
No Waiver. By seeking removal, Defendant Szmania
does not waive, and expressly reserve all rights, de­
fenses, or objections of any nature that they may have
to Plaintiff’s claims. Specifically, Defendant does not
waive any of its affirmative defenses as to sufficiency
of process, sufficiency of service and/or of process, ju­
risdiction, venue, right to arbitration, failure to state a
claim, failure to join a party, or any other affirmative
defense in this matter.
Notice. A copy of this Notice of Removal and the
Szmania Decl. is being served upon Plaintiff Wells
Fargo and filed with the clerk of the Superior Court of
Washington for Clark County pursuant to 28 U.S.C.
§ 1446(d).
Signature. This Notice of Removal is signed pur­
suant to FRCP 11. See 28 U.S.C. § 1446(a).
Further Precedents for this removal of
Subject Matter Jurisdiction with the
Ninth Circuit on the property known as:
17005 NE 164th Ave, Brush Prairie, WA
98606:
28 U.S.C. § 1291, 28 U.S.C. § 1332(a) 28 U.S.C.
§ 1367(a) and 28 U.S.C. § 1441 and 28 U.S.C.
§ 1446(a)(d) clearly gives the U.S. District Court and
the UNITED STATESCOURT OF APPEALS FOR
THE NINTH CIRCUIT Subject Matter Jurisdiction,
Appellate Jurisdiction, Diversity Jurisdiction, Supple­
mental Jurisdiction and Original Jurisdiction as de­
fined by Article III Section 2 of the U.S. Constitution.
As does 28 U.S. Code § 1332 - Diversity of citizenship;

App. 19 (Appendix 3)
amount in controversy; costs- also give Subject Matter
Jurisdiction and Original Jurisdiction along with 28
U.S. Code § 1441 - Removal of civil actions as Appellees
noted in their Notice of Removal Dkt 1 page 1 at 18.
The original State Case No. 16-2-01214-4 has
NEVER been remanded as we see on 9/8/16 Dkt 49
at page 6 at 23. The U.S. District Court Denied the Mo­
tion to Remand Back to State Court saying: “The Mo­
tion to Remand Mkt #231 is DENIED” Thus denying
the State Court Jurisdiction once again and maintain­
ing Subject Matter Jurisdiction, Appellate Jurisdic­
tion, Diversity Jurisdiction, Supplemental Jurisdiction
and Original Jurisdiction in the U.S. District Court &
the U.S. Court of Appeals for the Ninth Circuit until a
Mandate is filed.
Any relief the Appellees want to seek needs to be
done in this court that has Subject Matter Jurisdiction,
Appellate Jurisdiction, Diversity Jurisdiction, Supple­
mental Jurisdiction and Original Jurisdiction under
the motions chapter FRAP 27 and not court, forum or
judge shop with gamesmanship. This will not preju­
dice the Appellees in any way. We see that 28 U.S.C.
§ 1446(d) clearly prohibits such actions after a removal
to federal court. And the state court can not resolve the
issues here on appeal which makes this case distin­
guishable from the state case.
Furthermore, Appellees new claim for an Unlaw­
ful Detainer is also barred by the res judicata and
claim preclusion doctrines as well. That claim was

App. 20 (Appendix 3)
NEVER PLEAD in the case until after the Notice of
Appeal was filed on 12/19/16, Dkt 67.
Circuit Courts:
“Court must prove on the record, all jurisdic­
tion facts related to the jurisdiction asserted.”
Latana v. Hopper, 102 F. 2d 188; (5th Cir.
1939) Chicago v. New York, 37 F Supp. 150.
“The burden shifts to the court to prove juris­
diction.” Rosemond v. Lambert, 469 F2d 416
(5th Cir. 1972)
“Where a court failed to observe safeguards, it
amounts to denial of due process of law, court
is deprived of juris.” Merritt v. Hunter, C.A.
Kansas 170 F2d 739. (10th Cir. 1948)
The U.S. Supreme Court has stayed state
cases before and set precedence on jurisdic­
tion:
““28 U.S.C. § 1343(3): “The district courts shall
have original jurisdiction of any civil action
authorized by law to be commenced by any per­
son: » » (Page 415 U. S. 536)- Hagans v. Lavine
415 US. 528 (1974)
“A court cannot confer jurisdiction where none
existed and cannot make a void proceeding
valid. It is clear and well established law
that a void order can be challenged in any
court”. OLD WAYNE MUT. L. ASSOC, v. McDONOUGH, 204 U. S. 8, 27 S. Ct. 236 (1907).
“There is no discretion to ignore lack ofjuris­
diction.” Joyce v. US. 474 2D 215.

App. 21 (Appendix 3)
“The law provides that once State and Federal
Jurisdiction has been challenged, it must be
proven.” Main v. Thiboutot, 100 S. Ct. 2502
(1980).
“A court has no jurisdiction to determine its
own jurisdiction, for a basic issue in any case
before a tribunal is its power to act, and a
court must have the authority to decide that
question in the first instance ” Rescue Army v.
Municipal Court of Los Angeles, 171 P2d 8;
331 US 549, 91 L. ed. 1666, 67 S.Ct. 1409.
This Court has Subject Matter Jurisdiction, Appel­
late Jurisdiction, Diversity Jurisdiction, Supplemental
Jurisdiction and Original Jurisdiction on matters of
the Appellant’s home, known as 17005 NE 164th Ave,
Brush Prairie, WA 98606. Thus this Court has a re­
sponsibility to protect the Appellant’s Due Process in
this court without the interference of another state
court action.
Accordingly, this action should proceed in the
United States District Court for the Western District
of Washington at Tacoma, which submitted itself to
jurisdiction under appeal of 28 U.S.C. § 1291,28 U.S.C.
§ 1332, 28 U.S.C. § 1367(a), 28 U.S.C. § 1441 and 28
U.S.C. § 1446, to the UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, Case No. 1636055 and thus is an action properly removed thereto;
so this Court mav properly dismiss the Appel­
lees new claim for an Unlawful Detainer ac­
tion that is plead post Notice of Appeal Dkt 67

App. 22 (Appendix 3)
dated 12/19/16. for it is moot and should be
stricken with prejudice.
Presented by:
s/ Daniel G. Szmania
(Defendant) PlaintifPAppellant. Daniel G.
Szmania, Pro Se’ May 18, 2017
Presented: Daniel G. Szmania, (Defendant) Plaintiff/
Appellant, Pro Se’.
HM1USNR Retired, U.S. Supreme Court No. 11-6137.
17005 NE 164* Ave., Brush Prairie, WA 98606
360-260-2280, Email: dszmania@quixnet.net

Case No. 16-36055
CERTIFICATE OF SERVICE
I certify that, on the date indicated below, I caused
the foregoing document to be presented to the Clerks
of the United States District Court Western District of
Washington at Tacoma and the United States Court of
Appeals for the Ninth Circuit for filing and uploading
to the CM/ECF systems. In accordance with their ECF
registration agreements and the Court’s rules, the
Clerks of the Courts will send email notification of
such filing to all attorneys and parties of record. I af­
firm under penalty of perjury under the laws of the
United States that the foregoing is true and correct to
the best of my personal knowledge. LCR 101(b) list:
(Defendant) Plaintiff - Appellant:
Daniel G. Szmania HM1USNR-RET, U.S. Supreme
Court 11-6137.

App. 23 (Appendix 3)
360-260-2280 Email: dszmania@quixnet.net
17005 NE 164th Avenue, Brush Prairie, WA
98606
(Plaintiff) Defendants - Appellees:
John S. Devlin III, Lane Powell PC
206-223-7000 Email: devlinj@lanepowell.com
1420 Fifth Avenue, Suite 4100 (P.O. Box 91302),
Seattle, WA 98111-9402
Abraham K. Lorber, Lane Powell PC
206-223-7000 Email: Iorbera@lanepowell.com
1420 Fifth Avenue, Suite 4100 (P.O. Box 91302),
Seattle, WA 98111-9402
Benjamin David Petiprin, Zieve, Brodnax &
Steele, LLP
206-866-5345 Email: bpetiprin@zievelaw.com &
bpetiprin@zievelaw.com
30 Corporate Park, Suite 450, Irvine, CA 92606
SIGNED May 18, 2017 at Brush Prairie, Washing­
ton.
s/ Daniel G. Szmania
Daniel G. Szmania
(Defendant) Plaintiff/Appellant. Daniel G.
Szmania, Pro Se’ May 18, 2017
Presented: Daniel G. Szmania, (Defendant) Plaintiff/
Appellant, Pro Se’.
HM1 USNR Retired, U.S. Supreme Court No. 11-6137.
17005 NE 164th Ave., Brush Prairie, WA 98606
360-260-2280, Email: dszmania@quixnet,.net

App. 24 (Appendix 3)
DANIEL SZMANIA - FILING PRO SE
April 13, 2021 - 2:52 PM
Transmittal Information
Filed with Court: Supreme Court
Appellate Court
Case Number: 99578-8
Appellate Court
Case Title:
Wells Fargo Bank v.
Daniel G. Szmania
Superior Court
Case Number: 16-2-02606-4
The following documents have been uploaded:
•

995788_Affidavit_Declaration_20210413143614
SC279367_6033.pdf
This File Contains:
Affidavit/Declaration - Compliance
The Original File Name was 4-13-21 DEC­
LARATION DANIEL G SZMANIA-S UPPORT
REPLYpdf

•

995788_Letters_Memos_20210413143614SC2
79367_5481.pdf
This File Contains:
Letters/Memos - Other
The Original File Name was EX V CP 18 No­
tice 2 Clerk of Removal 2 Federal Court 5-1817.pdf

•

995788_Motion_202104131436145C279367_5048.
pdf
This File Contains:

App. 25 (Appendix 3)
Motion 1 - Other
The Original File Name was 4-13-21 Motion
to File a Reply.pdf
•

995788_Other_202104131436145C279367_8071.
pdf
This File Contains:
Other-EXV
The Original File Name was CP 18 5-18-017
Conformed Removal to Federal District Court

pdf
A copy of the uploaded files will be sent to:
•
•

garrett.garfield@hklaw.com
glenn.johnson@hklaw.com

Comments:
Appellant’s Motion to File a Reply-Reply
Sender Name: Daniel Szmania - Email: dszmania@
quixnet.net
Address:
PO Box 757
Brush Prairie, WA, 98606-0757
Phone: (360) 718-1402
Note: The Filing Id is 20210413143614SC279367

App. 26 (Appendix 4)
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION II

WELLS FARGO BANK, N.A.,
AS TRUSTEE FOR
BEAR STEARNS ARM
TRUST 2007-3,

No. 50523-1-II

Respondent,
v.
DANIEL G. SZMANIA, and
OCCUPANTS OF PREMISES,
Appellant.

UNPUBLISHED
OPINION
(Filed Jan. 3, 2019)

Lee, A.C.J. — Daniel G. Szmania appeals the su­
perior court’s denial of his motion to dismiss Wells
Fargo’s unlawful detainer complaint against him.
Szmania argues that (1) the superior court did not
have subject matter jurisdiction over Wells Fargo’s un­
lawful detainer action because a prior lawsuit he initi­
ated involving his property had been removed to
federal court, (2) Wells Fargo failed to properly serve
process on him because it failed to comply with the su­
perior court’s order for alternative service, (3) Wells
Fargo’s complaint failed to state a claim upon which
relief could be granted under CR 12(b)(6), and (4) the
superior court abused its discretion by entering orders
in this case when it did not have jurisdiction. Because
Wells Fargo failed to comply with the alternative

App. 27 (Appendix 4)
service statute and the trial court’s order for alterna­
tive service, we reverse.
FACTS
In July 2016, Wells Fargo purchased a property lo­
cated in Brush Prairie, Washington at a trustee’s sale
held pursuant to RCW 61.24.1 Szmania, the former
owner of the property, failed to vacate the property fol­
lowing sale. In December, Wells Fargo filed a complaint
for unlawful detainer in order to remove Szmania from
the premises and secure possession of its purchased
property.
On January 23, 2017, Wells Fargo filed a motion
for alternative service, requesting that the superior
court allow alternative service by posting the unlawful
detainer summons and complaint on the premises and
by mailing a copy to Szmania. In support, Wells Fargo
attached a declaration of non-service from the process
server, who stated that he had attempted to serve
Szmania, but could not because the gate was locked, a
car blocked the driveway, and a banner on the premises
indicated a threatening environment. The superior
1 RCW 61.24.030(3) grants the power of sale when “a default
has occurred in the obligation secured or a covenant of the gran­
tor, which by the terms of the deed of trust makes operative the
power to sell.”
RCW 61.24.030 has also been amended since the events of
this case transpired. These amendments also do not materially
affect the statutory language relied on by this court. Accord­
ingly, we refrain from including the word “former” before RCW
61.24.030.

App. 28 (Appendix 4)
court granted Wells Fargo’s motion and entered an or­
der for alternative service. This order stated that pur­
suant to RCW 59.12.040, service of process could be
completed by posting a copy of the summons and com­
plaint “in a conspicuous place on the subject [prop­
erty” and by mailing a copy to Szmania by certified
mail. Clerk’s Papers (CP) at 22.
On February 2, Wells Fargo filed a declaration of
service in which the process server stated that he
served Szmania on January 30 “[My attaching in a se­
cure manner to the main entrance of that portion of
the premises of which the defendant has possession”
the unlawful detainer summons and complaint. CP at
25. Wells Fargo also filed a certificate of mailing, which
stated that a copy of the summons and complaint had
been mailed to Szmania by first class mail on February
1.
On February 16, Szmania filed a motion to dismiss
Wells Fargo’s unlawful detainer action pursuant to CR
12(b)(l)-(6). Szmania argued that the superior court
did not have subject matter jurisdiction or personal ju­
risdiction over the unlawful detainer action because a
prior, separate lawsuit he initiated against Wells Fargo
had since been removed to federal court and service of
process was improper. Szmania supported his motion
to dismiss with, among other documents, a declaration
stating that a complaint he filed against Wells Fargo
had been removed to federal court in July 2016.2 The
2 The details of this lawsuit are unclear from the record, but
the declaration in support of removal shows that in addition to

App. 29 (Appendix 4)
complaint in the removed case was filed on June 27,
2016 and included claims for (1) declaratory judgment,
(2) permanent injunction, (3) forfeiture of deed, (4) sat­
isfaction of mortgage, (5) other equitable relief, (6) quiet
title, and (7) actions under the Criminal Profiteering
Act and Consumer Protection Act.
The superior court denied Szmania’s motion to
dismiss in May 2017. The superior court also entered
an order for default judgment on Wells Fargo’s unlaw­
ful detainer complaint, and entered an order to issue
writ of restitution without bond, which ordered posses­
sion of the premises restored in Wells Fargo. Szmania
appeals.
ANALYSIS
A. Service of Process
Szmania argues that service of process was im­
proper because Wells Fargo failed to comply with the
superior court’s order for alternative service. Specifi­
cally, he argues that the summons and complaint were
posted on his homeowner’s association gate, not his
property. Szmania also claims that he never received a
copy of the summons and complaint in the mail. We
agree that Wells Fargo failed to comply with the alter­
native service statute, and the superior court’s order
based on that statute, by failing to mail a copy of the
summons and complaint by certified mail.
Wells Fargo, Szmania named E-Loan Inc., Bear Steams, Benja­
min D. Petiprin, and John G. Stumpf as defendants.

App. 30 (Appendix 4)
1. Legal Principles
We review de novo whether service of process was
proper. Scanlan v. Townsend, 181 Wn.2d 838, 847, 336
P.3d 1155 (2014). Proper service of the summons and
complaint is essential to invoke personal jurisdiction
over the defendant. Id. Proper service of process must
satisfy both statutory and constitutional requirements.
Id. The plaintiff bears the initial burden of proving
a prima facie case of sufficient service. Id. The party
challenging service of process must show by clear and
convincing evidence that service was improper. Id.
2. Improper Service of Process
The dispute here is whether service of process was
proper. The superior court authorized alternative
service pursuant to RCW 59.12.085. This allowed al­
ternative service of process by (1) posting the sum­
mons and complaint in a conspicuous place on the
premises unlawfully held, and (2) by mailing a copy of
the summons and complaint to the defendant’s last
known address by regular and certified mail. RCW
59.12.085(2)(a), (b).
To show service was sufficient, Wells Fargo filed an
affidavit of the process server stating that service was
carried out on January 30, 2017, “[My attaching in a
secure manner to the main entrance of that portion of
the premises of which the defendant has possession”
the order for alternative service, the summons for un­
lawful detainer, and the complaint for unlawful de­
tainer. CP at 23. Wells Fargo also produced a certificate

App. 31 (Appendix 4)
of mailing stating that a copy of the summons and com­
plaint were mailed to Szmania at his last known ad­
dress by first class mail.
While this showed that Wells Fargo complied with
the first statutory requirement to post the summons
and complaint in a conspicuous place on the premises,
it did not show that Wells Fargo complied with the sec­
ond statutory requirement for alternative service.
RCW 59.12.085(2)(b) requires Wells Fargo to mail a
copy of the summons and complaint “by both regular
mail and certified mail” (Emphasis added). The pro­
cess server’s affidavit showed that instead of mailing
the summons and complaint by both regular mail and
certified mail, he mailed the documents only by first
class mail. Thus, Wells Fargo did not comply with the
statutory requirement for alternative service, and it
did not meet its initial burden of proving a prima facie
case of sufficient service. The process server’s affidavit
also allowed Szmania to meet his burden of showing
by clear and convincing evidence that service was im­
proper because the process server’s affidavit failed to
establish compliance with the statute and court order.
As a result, we reverse the superior court’s denial of
Szmania’s motion to dismiss.
B. Subject Matter Jurisdiction and Venue
Szmania argues that the superior court did not
have subject matter jurisdiction over Wells Fargo’s un­
lawful detainer action because a prior lawsuit he initi­
ated against Wells Fargo had been removed to federal

App. 32 (Appendix 4)
court. Szmania argues that because the federal court
never remanded this other case to the State court,
“subject matter jurisdiction was never restored” to the
State court. Br. of Appellant at 24. He also argues that
venue was improper because “no [v]enue exists with no
jurisdiction.” Br. of Appellant at 24. We disagree.
1. Standard of Review
Whether a court has subject matter jurisdiction
over a claim is a question of law that we review de
novo. Outsource Servs. Mgmt, LLC u. Nooksack Bus.
Corp., 181 Wn.2d 272, 276, 333 P.3d 380 (2014). Also,
the question of whether venue is proper is a legal ques­
tion that we review de novo. Eubanks v. Brown, 170
Wn. App. 768, 771, 285 P.3d 901 (2012), aff’d, 180
Wn.2d 590, 327 P.2d. 635 (2014).
2. The Superior Court had Subject Matter Juris­
diction
“There are very few limitations on the subject
matter jurisdiction of superior courts in Washington.”
Outsource Servs Mgmt, 181 Wn.2d at 276. Under the
Washington State Constitution, superior courts have
original jurisdiction “in all cases at law which involve
the title or possession of real property” and “actions of
forcible entry and detainer” as well as in “all cases and
of all proceedings in which jurisdiction shall not have
been by law vested exclusively in some other court.”
Wash. Const, art. IV, § 6. RCW 59.12.050 vests the
superior court of the county in which the property or

App. 33 (Appendix 4)
some part of it is situated with jurisdiction in unlawful
detainer proceedings.
An unlawful detainer action is a summary pro­
ceeding limited to determining the right to possession
of property. JosephiniumAssocs. v. Kahli, 111 Wn. App.
617, 624, 45 P.3d 627 (2002). It is a narrow action, and
the court’s jurisdiction is limited to determining the
right of possession. Id. “[Ijssues unrelated to posses­
sion are not properly part of an unlawful detainer ac­
tion.” Heaverlo v. Keico Indus., Inc. 80 Wn. App. 724,
728, 911 P.2d 406(1996).
Szmania appears to argue that the superior court
did not have subject matter jurisdiction over Wells
Fargo’s unlawful detainer action because a separate
lawsuit he initiated involving his property had been
removed to federal court. His sole support for this ar­
gument is 28 U.S.C. § 1446(d), which states that once a
civil action has been removed from state court, “the
State court shall proceed no further unless and until
the case is remanded.”
However, the record shows that the state court did
not proceed further in the case removed to federal
court. The case Szmania references as being removed
to federal court was a June 2016 complaint that he
brought against several parties, including Wells Fargo,
for declaratory judgment, permanent injunction, forfei­
ture of deed, satisfaction of mortgage, quiet title, and
claims under the Criminal Profiteering Act and Con­
sumer Protection Act. Conversely, the civil action at is­
sue here is an unlawful detainer action Wells Fargo

App. 34 (Appendix 4)
brought in December 2016. Szmania does not argue
that the state court proceeded in the case he initiated
against Wells Fargo following removal to federal court.
And Szmania provides no authority to support his ar­
gument that removal of a separate lawsuit to federal
court strips the state court of subject matter jurisdic­
tion over any subsequent litigation between the par­
ties.
Szmania relies on a Ninth Circuit Court of Ap­
peals opinion, which held that once a state or federal
court obtains jurisdiction over property, the property “
‘is withdrawn from the jurisdiction of the courts of the
other authority as effectually as if the property had
been entirely removed to the territory of another sov­
ereign.’” Sexton v. NDEX West, LLC, 713 F.3d 533, 536
(9th Cir. 2013) (internal quotation marks omitted)
(quoting State Eng’r v. S. Fork Band ofTeMoak Tribe of
W. Shoshone Indians, 339 F.3d 804, 809 (9th Cir. 2003)).
In other words, when “ ‘one court is exercising in rent
jurisdiction over a res, a second court will not assume
in rent jurisdiction over the same res.’” Id. (quoting
Chapman v. Deutsche Bank Nat’l Trust Co., 651 F.3d
1039, 1043 (9th Cir. 2011)). However, here, nothing in
the record shows that the federal court exercised in
rem jurisdiction over Szmania’s property, and thus,
Sexton does not apply. Accordingly, we reject Szmania’s
argument on this basis.
RCW 59.12.050 vests the superior court of the
county in which the property or some part of it is situ­
ated with jurisdiction in unlawful detainer proceed­
ings. Therefore, Szmania’s challenge to the superior

App. 35 (Appendix 4)
court’s subject matter jurisdiction in Wells Fargo’s un­
lawful detainer action fails.
3. Szmania Fails to Show Venue was Improper
Szmania also argues that the superior court
should have granted his motion to dismiss Wells
Fargo’s unlawful detainer action based on improper
venue. His sole argument on this basis is that “no
[v]enue exists with no jurisdiction.” Br. of Appellant at
24.
As explained above, Szmania fails to show that the
superior court did not have subject matter jurisdiction
over Wells Fargo’s unlawful detainer action. And even
if Szmania could make this showing, “[vjenue and ju­
risdiction are distinct concepts.” Dougherty v. Dep’t of
Labor & Indus., 150 Wn.2d 310, 315, 76 P.3d 1183
(2003). While jurisdiction connotes the power of the
court to decide a case on its merits, venue connotes lo­
cality. Id. at 316. “Venue is a procedural, rather than
jurisdictional, issue.’”Id. (quoting 92AC.J.S. Venue § 2,
at 241-42 (2000)). Therefore, we reject Szmania’s ar­
gument that subject matter jurisdiction somehow
influences whether venue was proper here. Because
Szmania provides no other argument that venue was
improper, we hold that his claim on this basis fails.
C. Abuse

of

Discretion

Finally, Szmania appears to re-argue his challenge
to the superior court’s subject matter jurisdiction,

App. 36 (Appendix 4)
except under an abuse of discretion standard. Again,
he claims that removal of a separate case to federal
court precluded the superior court from entering any
order on Wells Fargo’s unlawful detainer action. As ex­
plained above, we review de novo whether a court had
subject matter jurisdiction over a claim. Outsource
Serus. Mgmt, LLC, 181 Wn.2d at 276. And Szmania
still fails to provide any legal authority holding that a
superior court does not have subject matter jurisdic­
tion over an unlawful detainer action based on a sepa­
rate case being removed to federal court. Szmania also
fails to provide citation to any legal authority to sup­
port his claim that the superior court judge should be
“personally and equally liable” for damages Szmania
sustained in relocating from the property at issue in
this unlawful detainer action. Br. of Appellant at 33.
Accordingly, we hold that these arguments fail.
We reversed based on Wells Fargo’s improper ser­
vice of process.3
A majority of the panel having determined that
this opinion will not be printed in the Washington Ap­
pellate Reports, but will be filed for public record in ac­
cordance with RCW 2.06.040, it is so ordered.
/s/ Lee, A.C.J.
Lee, A.C. J.

3 Because we reverse based on improper service of process,
we do not address the merits of Szmania’s CR 12(b)(6) claim.

App. 37 (Appendix 4)
We concur:
/si Bjorga, J.
Bjorga, J.
Is/ Sutton, J.
Sutton, J.

App. 38 (Appendix 5)
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION II

WELLS FARGO BANK,
N.A., AS TRUSTEE FOR
BEAR STEARNS ARM
TRUST 2007-3,
Respondent,

No. 50523-1-II
MANDATE
Clark County Cause No.
16-2-02606-4

v.
DANIEL G. SZMANIA,
and OCCUPANTS
OF PREMISES,
Appellant.
The State of Washington to:
The Superior Court of the State of Washington
in and for Clark County
This is to certify that the opinion of the Court of
Appeals of the State of Washington, Division II, filed
on January 3, 2019 became the decision terminating
review of this court of the above entitled case on Feb­
ruary 5, 2019. Accordingly, this cause is mandated to
the Superior Court from which the appeal was taken
for further proceedings in accordance with the at­
tached true copy of the opinion.

App. 39 (Appendix 5)
[SEAL]

IN TESTIMONY WHEREOF, I have
hereunto set my hand and affixed
the seal of said Court at Tacoma,
this 14th day of February 2019.
/s/ Derek M. Bvrne
Derek M. Byrne
Clerk of the Court of Appeals,
State of Washington, Div. II

Janaya L Carter
The Wolf Firm
11900 NE 1st Street,
3rd Floor
Bellevue, WA 98005

Dale W Read, JR
Attorney at Law
211 E McLoughlin Blvd
Vancouver, WA 98663-3368

Leslie Marie Klott
Daniel G. Szmania
Attorney at Law
PO Box 757
25 Enterprise Ave FI 5
Brush Prairie, WA 98606-0757 Aliso Viejo, CA 92656

App. 40 (Appendix 7)
[SEAL] Washington State Court of Appeals
Division Two
950 Broadway, Suite 300,
Tacoma, Washington 98402-4454
Derek Byrne, Clerk/Administrator
(253) 593-2970 (253) 593-2806 (Fax)
General Orders, Calendar Dates,
and General Information at
http://www.courts.wa.gov/courts
OFFICE HOURS: 9-12, 1-4.
August 27, 2019
Janaya L Carter
The Wolf Firm
11900 NE 1st Street,
3rd Floor
Bellevue, WA 98005

Dale W Read, JR
Attorney at Law
211 E McLoughlin Blvd
Vancouver, WA 98663-3368

Leslie Marie Klott
Daniel G. Szmania
Attorney at Law
PO Box 757
25 Enterprise Ave FI 5
Brush Prairie, WA 98606-0757 Aliso Viejo, CA 92656

CASE #: 50523-1-II
Wells Fargo Bank, Respondent v. Daniel G. Szmania,
Appellant
Counsel:
On the above date, this court entered the following
notation ruling:
A RULING BY COMMISSIONER BEARSE:
Daniel Szmania moves to recall the mandate in
COA No. 50523-1-II, which reversed superior court

App. 41 (Appendix 7)
orders entered in an unlawful detainer action because
Wells Fargo Bank did not properly serve Szmania. Slip
op. at 10 (Jan. 3, 2019). He argues that the superior
court denied him due process. The motion is denied.
It appears from the recall motion that the superior
court entered additional orders in August 2019, which
Szmania plans to appeal. RAP 12.9 permits this court
to recall a mandate to determine of the superior court
complied with its earlier decision. But the rule also al­
lows for this court’s review of later superior court ac­
tions by “initiating a separate review of the lower court
decision entered after issuance of the mandate.” RAP
12.9. Because Szmania states he intends to file a new
notice of appeal, this court need not recall the man­
date.
Very truly yours,
/s/ Derek M. Byrne
Derek M. Byrne
Court Clerk

App. 42 (Appendix 8)
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION II

WELLS FARGO BANK, N.A.,
AS TRUSTEE FOR
BEAR STEARNS ARM
TRUST 2007-3,

No. 53743-5-II

Respondent,
v.
DANIEL G. SZMANIA,
Appellant.

UNPUBLISHED
OPINION
(Filed Jan. 5, 2021)

Sutton, J. — Wells Fargo purchased real property
at a trustee’s sale, which was formerly owned by Dan­
iel Szmania. After Szmania failed to vacate the prop­
erty, Wells Fargo filed an unlawful detainer action.
Szmania filed a motion to dismiss based in part on in­
sufficient service, which the superior court denied and
then entered a writ of restitution. Szmania appealed.
We reversed the superior court’s denial of his motion
to dismiss based on insufficient service and remanded
for further proceedings. On remand, Szmania filed a
motion for possession and damages. At a hearing on
this motion, Wells Fargo orally moved to dismiss under
CR 41(a)(1)(B). The superior court entered orders
denying Szmania’s motion and granting Wells Fargo’s
motion. Szmania appeals these orders.
Szmania argues that he is entitled to possess the
real property and be awarded damages under RCW

App. 43 (Appendix 8)
59.18.290C1)1 because he is a “tenant” and based on this
court’s reversal of the superior court’s denial of his mo­
tion to dismiss. Szmania also argues that the superior
court erred by granting Wells Fargo’s oral motion to
dismiss under CR 41(a)(1)(B). He requests appellate
attorney fees and costs.
We hold that (1) RCW 59.18.290(1) does not sup­
port Szmania’s claim for possession and damages,
(2) this court’s prior opinion provides no basis for his
motion for possession and damages, and (3) the supe­
rior court did not err by granting Wells Fargo’s oral mo­
tion to dismiss the case. We deny Szmania’s request for
an award of appellate attorney fees and costs. We af­
firm the superior court’s order denying Szmania’s mo­
tion for possession and damages and granting Wells
Fargo’s motion to dismiss.
FACTS2
In July 2016, Wells Fargo purchased property lo­
cated in Brush Prairie, Washington at a trustee’s sale
held pursuant to RCW 61.24. Szmania, the former
owner of the property, failed to vacate the property fol­
lowing sale. In December 2016, Wells Fargo filed a com­
plaint for unlawful detainer to remove Szmania from

1 The legislature amended RCW 59.18.290 in 2020. Laws OF
2020, ch. 315 § 7. Because the amendments are not relevant here,
we cite to the current version of the statute.
2 Unless otherwise indicated, the following facts derive from
Wells Fargo Bank v. Szmania, noted at 7 Wn. App. 2d 1003 (2019).

App. 44 (Appendix 8)
the premises and secure possession of its purchased
property.
On January 23, 2017, Wells Fargo filed a motion
for alternative service, requesting that the superior
court allow alternative service by posting the unlawful
detainer summons and complaint on the premises and
by mailing a copy to Szmania. In support of this mo­
tion, Wells Fargo attached a declaration of non-service
from the process server, who stated that he had at­
tempted to serve Szmania, but could not because the
gate was locked, a car blocked the driveway, and a ban­
ner on the premises indicated a threatening environ­
ment. The superior court granted Wells Fargo’s motion
and entered an order for alternative service. This order
stated that pursuant to RCW 59.12.040, service of pro­
cess could be completed by posting a copy of the sum­
mons and complaint “in a conspicuous place on the
subject [pjroperty” and by mailing a copy to Szmania
by certified mail. Wells Fargo, slip op. at 2 (internal
quotation marks omitted).
On February 2, Wells Fargo filed a declaration of
service in which the process server stated that he
served Szmania on January 30 “[My attaching in a se­
cure manner to the main entrance of that portion of
the premises of which the defendant has possession”
the unlawful detainer summons and complaint. Wells
Fargo, slip op. at 3 (internal quotation marks omit­
ted). Wells Fargo also filed a certificate of mailing,
which stated that a copy of the summons and com­
plaint had been mailed to Szmania by first class mail
on February 1.

App. 45 (Appendix 8)
On February 16, Szmania filed a motion to dismiss
Wells Fargo’s unlawful detainer action pursuant to CR
12(b)(l)-(6). Szmania argued that the superior court
did not have subject matter jurisdiction or personal ju­
risdiction over the unlawful detainer action because a
prior, separate lawsuit he initiated against Wells Fargo
had since been removed to federal court and service of
process was improper.
The superior court denied Szmania’s motion to
dismiss in May 2017. The superior court also entered
an order for default judgment on Wells Fargo’s unlaw­
ful detainer complaint, and entered an order to issue
writ of restitution without bond, which ordered posses­
sion of the premises restored in Wells Fargo. Szmania
appealed.
We held that “Wells Fargo did not comply with the
statutory requirement for alternative service, and it
did not meet its initial burden of proving a prima facie
case of sufficient service” because Wells Fargo did not
show proof of service by certified mail. Clerk’s Papers
(CP) at 9. However, we rejected Szmania’s arguments
that the superior court lacked jurisdiction or that
venue was improper and declined to address the merits
of Szmania’s CR 12(b)(6) arguments.
After this case was remanded to the superior court
for further proceedings, Szmania filed a motion enti­
tled “Motion for Possession and Damages.” Wells Fargo
opposed the motion.
On August 9, 2019, the superior court heard argu­
ments on the motion. Wells Fargo orally moved for

App. 46 (Appendix 8)
dismissal of the case under CR 41(a)(1)(B). The supe­
rior court subsequently entered an order denying
Szmania’s motion for possession and damages3 and
an order granting Wells Fargo’s motion to dismiss.4
Szmania appeals these orders.
ANALYSIS
I.

Standard

of

Review

RCW 59.18.290 is part of Washington’s Residen­
tial Landlord-Tenant Act of 19735 and it contains
provisions allowing a tenant to recover possession of
real property or damages from a landlord. RCW
59.18.290(1). Reviewing whether this statute applies
outside of the landlord-tenant context is a question of
law and questions of law are reviewed de novo. End
Prison Indus. Complex v. King County, 192 Wn.2d 560,
566, 431 P.3d 998 (2018). We also review de novo
whether this court’s prior reversal of the superior
court’s denial of Szmania’s CR 12(b)(6) motion to dis­
miss grants him possession and damages. End Prison
Indus. Complex, 192 Wn.2d at 566.

3 CP at 181 (order denying motion for possession and dam­
ages, filed Aug. 9, 2020).
4 CP at 179 (order dismissing action, filed Aug. 9, 2020).
5 Ch. 59.18 RCW.

App. 47 (Appendix 8)
II.

RCW 59.18.290(1)

Szmania argues that RCW 59.18.290(1) entitles
him to possession of the real property at issue in this
case and to actual damages sustained.6 We disagree.
Under RCW 59.18.290(1),
It is unlawful for the landlord to remove or ex­
clude from the premises the tenant thereof ex­
cept under a court order so authorizing. Any
tenant so removed or excluded in violation of
this section may recover possession of the
property or terminate the rental agreement
and, in either case, may recover the actual
damages sustained. The prevailing party may
recover the costs of suit or arbitration and rea­
sonable attorneys' fees.
(Emphasis added.)
The term “tenant” is defined as “any person who is
entitled to occupy a dwelling unit primarily for living
or dwelling purposes under a rental agreement.” RCW
6 Szmania claims that he is a “tenant in sufferance” under
RCW 59.04.050. Appellant’s Opening Br. at 23. Under RCW
59.04.050, “Whenever any person obtains possession of premises
without the consent of the owner or other person having the right
to give said possession, he or she shall be deemed a tenant by suf­
ferance merely, and shall be liable to pay reasonable rent for the
actual time he or she occupied the premises. . . .” Szmania’s claim
fails because this statute, even if applicable, did not convey to
Szmania any rights, nor does it entitle him to.rights as a tenant
under any portion of the Residential Landlord Tenant Act. It in­
stead provides property owners the right to recover reasonable
rent from any person wrongfully occupying the property. Accord­
ingly, this argument fails.

App. 48 (Appendix 8)
59.18.030(32).7 Szmania was not a tenant of Wells
Fargo, was not entitled to occupy the real property in
question at any relevant time, and did not have a
rental agreement with Wells Fargo.
Szmania’s motion for possession and damages re­
ferred to CR 7(b), but this rule provides certain stand­
ards for written motions in Washington State courts
and does not provide a basis for any substantive relief.
Szmania’s motion referred to RAP 12.8 as well, but this
rule references restoration of property taken from a
party as a result of a trial court decision modified on
appeal. This rule is inapplicable here because Szmania
has not established a property interest or right to oc­
cupy the property at issue in this case when the case
was filed or any time thereafter.
Accordingly, we hold that the superior court cor­
rectly denied Szmania’s motion for possession and
damages because the motion was based upon an inap­
plicable statute and Szmania did not cite any other po­
tentially applicable authorities.
III.

Our Earlier Opinion

Szmania argues that our earlier opinion regarding
this matter entitles him to possession of the real prop­
erty at issue and damages. We disagree.

7 The legislature amended RCW 59.18.030 in 2019. LAWS
OF 2019, ch. 356 § 5. Because the amendments are not relevant
here, we cite to the current version of the statute.

App. 49 (Appendix 8)
In Szmania’s first appeal, we rejected his substan­
tive arguments that the superior court lacked subject
matter jurisdiction and that venue was improper. We
held that service had not been properly completed and
reversed the denial of Szmania’s CR 12(b)(6) motion to
dismiss on that ground alone. Szmania assumes that
this reversal meant that he had a right to continue to
occupy the real property at issue.
However, our earlier opinion simply reversed the
denial of the motion to dismiss and left further pro­
ceedings to the superior court. We did not instruct that
the motion would be granted below or granted with
prejudice. Our earlier opinion did not determine or
suggest that Szmania had any rights in the real prop­
erty. The earlier opinion simply held that Wells Fargo
had improperly served Szmania.
Accordingly, we hold that the superior correctly
denied Szmania’s motion for possession and damages
because the motion lacked any legal basis upon which
the superior court could have granted any relief
IV.

Wells Fargo’s Oral Motion To Dismiss

Szmania argues that the superior court erred by
granting Wells Fargo’s oral motion to dismiss under
CR 41(a)(1)(B). We disagree.
We review a decision to grant a voluntary dismis­
sal under CR 41 for an abuse of discretion. Gutierrez v.
Icicle Seafoods, Inc., 198 Wn. App. 549, 553, 394 P.3d
413 (2017). CR 41(a)(1)(B) provides the plaintiff in a

App. 50 (Appendix 8)
Washington action with an absolute right to dismiss
the action before resting at the close of its case in chief.
Gutierrez, 198 Wn. App. at 553. Here, Wells Fargo, the
plaintiff in the unlawful detainer case, orally moved for
dismissal of the case under CR 41(a)(1)(B) before it
rested. The superior court subsequently granted the
motion.
Accordingly, we hold that the superior court did
not err by granting Wells Fargo’s oral motion to dis­
miss under CR 41(a)(1)(B).
ATTORNEY FEES
Szmania requests an award of appellate attorney
fees and costs under RAP 18.1. Because Szmania is
self-represented, he is not entitled to attorney fees or
costs. Mitchell v. Dep’t of Corn, 164 Wn. App. 597, 608,
277 P.3d 670 (2011). Thus, we deny Szmania’s request
for an award of appellate fees and costs.
CONCLUSION
We hold that (1) RCW 59.18.290(1) does not sup­
port Szmania’s claim for possession and damages,
(2) this court’s prior opinion provides no basis for his
motion for possession and damages, and (3) the supe­
rior court did not err by granting Wells Fargo’s oral
motion to dismiss the case. We deny Szmania’s re­
quest for an award of appellate attorney fees and costs.
We affirm the superior court’s order denying Szmania’s

App. 51 (Appendix 8)
motion for possession and damages and order granting
Wells Fargo’s motion to dismiss.
A majority of the panel having determined that
this opinion will not be printed in the Washington Ap­
pellate Reports, but will be filed for public record in ac­
cordance with RCW 2.06.040, it is so ordered.
/s/ Sutton, J.
Sutton, J..
We concur:
/s/ Lee, C.J.
Lee, C.J.
/s/ Glasgow, J.
Glasgow, J.

/

App. 52 (Appendix 9)
THE SUPREME COURT OF WASHINGTON
WELLS FARGO BANK,

)
)

Respondent,
v.
DANIEL G. SZMANIA,
Petitioner.

) No. 99578-8
ORDER

) Court of Appeals
) No. 53743-5-II
) (Filed Jun. 30, 2021)

Department I of the Court, composed of Chief Jus­
tice Gonzalez and Justices Johnson, Owens, Gordon
McCloud, and Montoya-Lewis, considered at its June
29, 2021, Motion Calendar whether review should be
granted pursuant to RAP 13.4(b) and unanimously
agreed that the following order be entered.
IT IS ORDERED:
That the petition for review is denied. The Peti­
tioner’s request for oral argument is denied as moot.
DATED at Olympia, Washington, this 30th day of
June, 2021.
For the Court
/s/ Gonzalez, C.J.
CHIEF JUSTICE

App. 53 (Appendix 9A)
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION II

WELLS FARGO BANK,
N.A., AS TRUSTEE FOR
BEAR STEARNS ARM
TRUST 2007-3,
Respondent,

No. 53743-5-II
MANDATE
Clark County Cause No.
16-2-02606-4

v.
DANIEL G. SZMANIA,
Appellant.
The State of Washington to:
The Superior Court of the State of Washington
in and for Clark County
This is to certify that the opinion of the Court of
Appeals of the State of Washington, Division II, filed
on January 5, 2021 became the decision terminating
review of this court of the above entitled case on June
30,2021. Accordingly, this cause is mandated to the Su­
perior Court from which the appeal was taken for fur­
ther proceedings in accordance with the attached true
copy of the opinion.

App. 54 (Appendix 9A)
[SEAL]

IN TESTIMONY WHEREOF, I have
hereunto set my hand and affixed
the seal of said Court at Tacoma,
this 9th day of August 2021.
/s/ Derek M. Bvrne
Derek M. Byrne
Clerk of the Court of Appeals,
State of Washington, Div. II

Daniel G. Szmania
Garrett Stephen Garfield
PO Box 757
Attorney at Law
Brush Prairie, WA 98606-0757 601 SW 2nd Ae Ste 1800
Portland, OR 97204-3171

